<html>
<title> - THE PRISON RAPE REDUCTION ACT OF 2002</title>
<body><pre>[Senate Hearing 107-937]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-937
 
                 THE PRISON RAPE REDUCTION ACT OF 2002
=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 31, 2002

                               __________

                          Serial No. J-107-99

                               __________

         Printed for the use of the Committee on the Judiciary








                       U. S. GOVERNMENT PRINTING OFFICE
87-677                         WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ORRIN G. HATCH, Utah
JOSEPH R. BIDEN, Jr., Delaware       STROM THURMOND, South Carolina
HERBERT KOHL, Wisconsin              CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         ARLEN SPECTER, Pennsylvania
RUSSELL D. FEINGOLD, Wisconsin       JON KYL, Arizona
CHARLES E. SCHUMER, New York         MIKE DeWINE, Ohio
RICHARD J. DURBIN, Illinois          JEFF SESSIONS, Alabama
MARIA CANTWELL, Washington           SAM BROWNBACK, Kansas
JOHN EDWARDS, North Carolina         MITCH McCONNELL, Kentucky
       Bruce A. Cohen, Majority Chief Counsel and Staff Director
                  Sharon Prost, Minority Chief Counsel
                Makan Delrahim, Minority Staff Director





                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts..................................................     1
    prepared statement...........................................    67
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah, 
  prepared statement.............................................    61
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....     6

                               WITNESSES

Bruntmyer, Linda, Amarillo, Texas................................     8
Dumond, Robert W., Clinical Mental Health Counselor, and Member, 
  Board of Advisors, Stop Prisoner Rape, Hudson, New Hampshire...    13
Earley, Mark, President, Prison Fellowship Ministries, Reston, 
  Virginia.......................................................     9
Saperstein, Rabbi David, Director, Religious Action Center of 
  Reform Judaism, Washington, D.C................................    11
Wolf, Hon. Frank R., a Representative in Congress from the State 
  of Virginia....................................................     2

                       SUBMISSIONS FOR THE RECORD

American Civil Liberties Union, Rachel King, Legislative Counsel, 
  Washington National Office, and Elizabeth Alexander, Director, 
  National Prison Project of the American Civil Liberties Union, 
  statement and attachments......................................    24
Bruntmyer, Linda, Amarillo, Texas, prepared statement............    30
Dumond, Robert W., Clinical Mental Health Counselor, and Member, 
  Board of Advisors, Stop Prisoner Rape, Hudson, New Hampshire, 
  prepared statement and attachment..............................    34
Eagle Group, Frank A. Hall, Managing Director, Washington, D.C., 
  letter.........................................................    53
Earley, Mark, President, Prison Fellowship Ministries, Reston, 
  Virginia, prepared statement...................................    55
Human Rights Watch, Wendy Patten, U.S. Advocacy Director, 
  Washington, D.C., prepared statement...........................    63
National Association for the Advancement of Colored People, 
  Hilary Shelton, Director, Washington, D.C., prepared statement.    69
National Association of Evangelicals, Richard C. Cizik, Vice 
  President, Government Affairs, Washington, D.C., letter........    72
National Commission on Correctional Health Care, Edward Harrison, 
  President, Chicago, Illinois, prepared statement...............    73
Pryor, Bill, Attorney General of Alabama, prepared statement.....    76
Salvation Army, George E. Hood, Major, National Director of 
  Public Affairs, letter.........................................    78
Saperstein, Rabbi David, Director, Religious Action Center of 
  Reform Judaism, Washington, D.C., prepared statement...........    79
Southern Baptist Convention, Shannon Royce, Director of 
  Government Relations and Counsel, Washington, D.C., letter.....    82
Struckman-Johnson, Cindy, Professor of Psychology, University of 
  South Dakota, prepared statement and attachment................    83
Wolf, Hon. Frank R., a Representative in Congress from the State 
  of Virginia, prepared statement................................    86




                 THE PRISON RAPE REDUCTION ACT OF 2002

                              ----------                              


                        WEDNESDAY, JULY 31, 2002

                              United States Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, Pursuant to notice, at 1:34 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Edward M. 
Kennedy, presiding.
    Present: Senators Kennedy and Sessions.

  OPENING STATEMENT OF HON. EDWARD M. KENNEDY, A U.S. SENATOR 
                FROM THE STATE OF MASSACHUSETTS

    Senator Kennedy. We will come to order. Today, the 
Judiciary Committee considers a serious problem in prisons, 
jails, and detention centers.
    In 1994, the Supreme Court ruled that, ``Being violently 
assaulted in prison is simply not part of the penalty that 
criminal offenders pay for their offenses against society.'' 
Nevertheless, we know that hundreds of thousands of inmates 
across the nation, not only convicted prisoners, but pre-trial 
detainees and immigration detainees, as well, are victims of 
sexual assault each year.
    Prison rape has devastating physical and psychological 
effects on its victims. It also has serious consequences for 
communities. Six-hundred-thousand inmates are released from 
prison or detention every year, and their brutalization 
increases the likelihood that they will commit new crimes after 
they are released.
    Infection rates for HIV, other sexually transmitted 
diseases, tuberculosis, and hepatitis C are far greater for 
prisoners than for the American population as a whole. Prison 
rape undermines the public health by contributing to the spread 
of these diseases and often gives a potential death sentence to 
its victims.
    It is long past time to address this epidemic. Last month, 
Senator Sessions and I proposed the Prison Rape Reduction Act, 
a bipartisan bill to deal with the problem of prison rape while 
still respecting the primary role of States and local 
governments in administering prisons and jails.
    Our bill asks the Department of Justice to conduct an 
annual statistical review of prison rape to identify 
institutions with high incidence of rape. It authorizes $40 
million a year in grants to strengthen the ability of State and 
local officials to prevent these abuses. It establishes a 
commission to conduct hearings over 2 years and recommend 
national standards on a wide range of issues, including inmate 
classification, investigation of rape complaints, trauma care 
for rape victims, disease prevention, and staff training.
    An extraordinary coalition of churches, civil rights 
groups, and concerned individuals have joined together to act 
on this issue. It is not a liberal issue or a conservative 
issue. It is an issue of basic decency and human rights. I 
commend this coalition for its impressive moral leadership and 
I thank Chairman Leahy for the opportunity to hold this 
hearing.
    In the House of Representatives, our legislation is 
sponsored by two human rights leaders, Congressman Frank Wolf 
and Congressman Bobby Scott. We are privileged to have 
Congressman Wolf here today. With its growing support in 
Congress and the broad coalition of other supporters, we hope 
that this bill can be signed into law this year, and I thank 
all the witnesses for being with us and look forward to their 
testimony.
    I particularly want to recognize a constituent of ours, 
John Caneb from Massachusetts, who is in the audience and has 
been very much involved in this issue and commend him for his 
great interest in this and all of the help he has been in terms 
of moving this process forward.
    [The prepared statement of Senator Kennedy appears as a 
submission for the record.]
    Senator Kennedy. We are fortunate this afternoon to have 
some really outstanding witnesses. Our first is a very special 
one, Congressman Frank Wolf. Few Members of Congress can claim 
a list of accomplishments comparable to Frank Wolf's. In his 22 
years as a Representative of Virginia's Tenth Congressional 
District, Congressman Wolf has been a leader in developing mass 
transportation, promoting family-friendly workplaces for 
Federal employees, and drawing attention to the harmful effects 
of legalized gambling.
    As Chairman of the House Commerce, Justice, State, and 
Judiciary Appropriations Committee, he is also one of the 
strongest voices in Congress for human rights. He is Co-
Chairman of the Congressional Human Rights Caucus, a member of 
the U.S. Helsinki Commission. He has worked to improve human 
rights and basic living conditions for refugees around the 
world. He is the lead sponsor of the Prison Rape Reduction Act 
in the House, along with Congressman Bobby Scott. We are 
honored to have him before our committee today.
    Thank you very much, Congressman, for being here and for 
the good work that you do on this legislation and so many other 
pieces of legislation, as well.

 STATEMENT OF HON. FRANK R. WOLF, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VIRGINIA

    Representative Wolf. Thank you, Senator, and thank you for 
your comments. I appreciate your holding these hearings, 
particularly in the last week the Senate is in session, knowing 
how busy everything is. So it is a tribute to you that you have 
taken the time and I want to thank you.
    I appreciate you giving me this opportunity to be here 
today to testify on a vitally important issue to the nation's 
prison system, the ongoing problem of prison rape.
    I also want to acknowledge the efforts, and I am speaking 
for my Virginia colleague, Bobby Scott, who could not be here 
today but whose efforts, along with yours and Senator 
Sessions', make this issue truly bipartisan. This legislation, 
the Prison Rape Reduction Act of 2002, will go a long way in 
addressing a problem that has too long been quietly swept under 
the rug.
    I also want to thank the many groups that support this 
legislation, including Prison Fellowship, its President Chuck 
Colson, and Mark Earley, and NAACP, the Family Research 
Council, La Raza, the Human Rights Watch, Salvation Army, Rabbi 
Saperstein, and many others. With this broad array of support, 
I am hopeful, somehow, we can have this legislation passed 
before the end of this Congress. I also want to recognize the 
efforts of Michael Horowitz, who has spearheaded this entire 
effort and whose tireless dedication on this and other issues 
really deserves special recognition.
    Prison rape, to be sure, is not a dinner conversation 
issue. For years, no one--no one--has talked about it, much 
less acted on it. But as you know, Mr. Chairman, you and 
Senator Sessions, this issue is one of compassion and the broad 
base of support it has shows that it transcends one's political 
affiliation. Society, hopefully, is finally coming to grips 
with this vile act.
    Of the two million prisoners in the U.S., a conservative 
estimate is one in ten--one in ten, and if you looked at the 
figures coming out today of the Department of Justice, the 
prison population is still increasing--but one in ten have been 
raped. A 1996 study of the Nebraska prison system reported that 
22 percent--22 percent--of male inmates had been pressured or 
forced to have sex against their will while incarceration, and 
over these, half submitted to forced sex at least once. Other 
reports and investigations have all demonstrated that there is 
a shockingly high rate of sexual abuse in U.S. prisons.
    Prison rape, like all other forms of sexual assault, is 
torture, the infliction of severe emotional and physical pain 
as punishment and coercion. Long after the body has healed, the 
emotional state remains traumatized and shamed. The individual 
is stigmatized, stigmatized in the prison and sometimes 
stigmatized outside.
    As you said, Senator, the Supreme Court has made it clear. 
``Being violently assaulted in prison is simply not part of the 
penalty that criminal offenders pay for their offenses against 
society.'' Deliberate indifference, and that is what we have 
had, deliberate indifference to prison rape violates the Eighth 
Amendment's prohibition against cruel and unusual punishment.
    This is not just a matter of protecting inmates. Society 
also pays dearly for ignoring prison rape. All major studies 
show that prison rape costs the taxpayer in recidivism and 
increased violent crimes. Inmates, often non-violent first-time 
offenders, will come out of a prison rape experience severely 
traumatized and will often leave prison more violent than when 
they entered. Finally, the high incidence of rape within prison 
leads to the increased transmission of HIV, hepatitis, and 
other diseases, which society will have to pay for.
    While these policy realities of prison rape seem clear, to 
view this issue from the perspective of an individual inmate--
and that is how you have to view it, from an inmate's position 
and they are where they are and what they are at that time--is 
necessary to understand the true nature of this abhorrent act. 
Rape may be the ultimate humiliation, with very serious and 
long-lasting psychic damage to the victim, as well as to close 
loved ones who are secondary victims.
    Prison rape receives virtually no attention, no attention 
by the media. Where has the media been? You almost never ever 
see an article in the major media outlet with regard to the 
issue of prison rape. The politicians have been quiet, and the 
public at large has been quiet on the issue also.
    What actually happens to the victim of prison rape, prison 
rape survivors become rapists themselves in a demented attempt 
to regain what they think of as their ``lost manhood.'' Some 
prison rape victims retaliate by murdering their rapist, 
receiving added years to the sentence. Another outcome of 
prison rape is suicide. Researchers have found that suicide is 
the leading cause of death behind bars and sexual harassment is 
the leading cause of prisoner suicide.
    No matter where the survivor ends up, severe psychosis is 
the most common outcome of prisoner rape. Sexual assault can 
often break a prisoner's spirit. In the advanced stages of 
rape, trauma syndrome, a survivor's mood often swings between 
deep depression and rage. Prisoner rape may be the quickest, 
the most cost-effective way of producing a sociopath. According 
to researchers, the fact that most men on death row were 
sexually abused earlier in life should come as no surprise. 
Indeed, it is a fact that society ignores at its own peril.
    In April of 2001, the group Human Rights Watch published a 
report entitled ``No Escape'' that was a comprehensive 
investigation into the prison rape epidemic. Human Rights Watch 
deserves to be commended for this effort and I think that 
Members of Congress concerned about this prison system should 
read this report.
    The report shows that many of the inmates that are victims 
of rape were young and were often placed in prisons as non-
violent offenders. Also, many were scheduled for short 
sentences and would soon be returning to society.
    The report also published some of the actual letters 
written by inmate victims of prison rape. For example, an 
inmate in Florida writes the following. He says, ``I was young, 
and yes, I was weak. My weight was only 120 pounds. The first 
few months I was raped and beat up many times. I would always 
fight back. I wanted my attackers to know that I was not a 
willing subject for their evilness. I went to the guards for 
help and was told there was nothing that could be done, that I 
would have to stand up like a man and take care of my own 
troubles.''
    I have attached excerpts from other letters, and last night 
in preparing for this testimony, I went back and read some of 
the letters. I did not want to read them out loud. But I think 
anybody who has anything to do in the prison system ought to 
read these letters. They are painful. They are just 
unbelievable, and when you think that you are in an institution 
run by the government where you would see the guards that you 
could think that you could go to--when we have a problem, we 
see a police officer, we go to him, and here the guards 
sometimes are telling you that there is nothing they can do.
    The letters will be put in the record. Everyone ought to 
read these letters and then imagine, what if this was somebody 
in my family? What if this were a relative? What if this were 
the next-door neighbor? What if this were somebody on my staff? 
What if this were somebody who was picked up for some minor 
crime? The letters are actually brutal and I think they ought 
to be forced reading for anybody in the criminal justice 
system.
    Mr. Chairman, in closing, we are learning more stories of 
prison rape. These accounts have only recently been catalogued, 
as often inmates have been afraid to speak out for years. 
Throughout my career, I have long believed that criminals 
deserve tough sentences, and I still believe that being tough 
on criminals serves to protect our larger society.
    But ignoring prison rape has nothing to do with being tough 
on criminals. Deliberate indifference will only serve to 
undermine the entire criminal justice system. A man who is 
sentenced to time should serve that time, but he is not 
sentenced to being raped and possibly contacting HIV.
    I am hopeful and believe, particularly with this hearing, 
this legislation will provide a chance to gain a full picture 
of how widespread the abuse is and offer incentives for 
correctional facilities to finally address it. For too long, it 
has been ignored, and with this hearing, that has come to an 
end.
    I appreciate your leadership and that of Senator Sessions 
and the hearing, which will give us a record that maybe perhaps 
we could take this, if we run out of time, and just stuff it on 
some appropriations bill somewhere whereby it becomes law so we 
can really do something to make a difference.
    With that, Mr. Chairman, I thank you very much.
    Senator Kennedy. We know who will be stuffing it on some 
appropriations bill.
    [Laughter.]
    Senator Kennedy. That is powerful testimony, Congressman. 
Just very quickly, you have covered the ground, but I would 
like to hear again about why people should be concerned about 
what is happening. There are so many reasons why this demands 
attention and demands our focus and assistance in trying to 
make an impact on this conduct. You have already thought about 
this from so many different dimensions. Why should people 
outside the prisons be concerned about it?
    You have illustrated some of the reasons, but if we are 
interested in having a peaceful society and having communities 
free from violence and stress, to the extent that that can be 
the case, why is it important that we support and give 
attention to this problem? Why should the average person be 
concerned about this? If we do not do it, what are their risks, 
and if we take some steps, what are their advantages?
    Representative Wolf. I think when you incarcerate someone, 
you cannot just put them away with the idea they are in a 
warehouse. I think you have to treat them with compassion, give 
them education, training, and this is a situation whereby they 
actually come out more violent. When you read the letters, as I 
am sure you will, you will see that you are actually turning 
these people into violent people when they come out.
    Years ago, before I was elected to Congress, I was involved 
in a program with former Redskin player Charlie Harraway. We 
would go down to Lorton. It was called ``Man to Man.'' It was a 
Christian program and you would counsel the prisoners. 
Sometimes a prison would tell you--in Lorton, they were living 
mainly on a dormitory basis. Violent criminals in a dormitory 
basis--a prison that was built in the old days, they thought 
was a good way to do it, really was not working. The prisoner 
would say, ``I can never really completely sleep. I literally 
have to half stay awake because I am not sure what is going to 
happen to me in the middle of the night. Somebody is going to 
come and attack me. Somebody is going to put a shiv in me. A 
gang will grab me.'' It is the fear that they have.
    So I think society has an obligation and a burden, but also 
with regard to a duty to see that these prisoners are treated 
fairly serving their time so when they do come out, you do not 
have more HIV and you also do not have sociopathic people 
coming out who want to take this out on society.
    So I think it is just the right thing to do, but I think 
society benefits by treating people with compassion and 
treating them well.
    Senator Kennedy. That is, I think, an excellent comment and 
statement and absolutely an accurate one.
    I recognize Senator Sessions for any questions.

STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE STATE 
                           OF ALABAMA

    Senator Sessions. Thank you, Mr. Chairman. Thank you for 
your leadership on this important issue. I am pleased to join 
with you on it, and Congressman Wolf, it is great to have your 
leadership in the House and that of Congressman Scott.
    I was a Federal prosecutor for a long time and talked to a 
lot of mothers. I had a policy that I would talk to anybody 
about a case that was coming through my office, and frequently 
would have very, very painful discussions with mothers and 
family when their members would be sent off to the 
penitentiary. It is tough enough to go to jail. We ought not to 
have any doubts that these people who are being punished for 
violation of our law are being subjected to sexual abuse in the 
process. I do not think we can defend that. That is not 
justifiable.
    I hope and pray the numbers that we have been hearing are 
exaggerated, but I have no doubt that too much of it is going 
on. I believe our legislation, Mr. Chairman, will help us tell 
the public and to family members of people who are going to 
jail that we are not going to tolerate this kind of behavior. 
We are going to put a stop to it if there is any way possible.
    Of course, prisons are dangerous places. They are populated 
with a number of people, not all, but a number of them that are 
quite dangerous and perfection is not possible, but we can do 
better, a lot better, I am convinced, and I appreciate both of 
your leadership on this question. It is not just legal or 
political, it is a moral question. I believe that we are on the 
right road to dealing with it.
    I was pleased that my Attorney General, Bill Pryor, who is 
a strong believer in the legal systems and independence of 
States, believes that this is appropriate legislation and 
supports it. I noticed recently the Southern Baptist Convention 
has come forward with an endorsement of the legislation. That 
goes in addition to the many, many others that have already 
been received, I think.
    So I feel good about where we are and I look forward to 
working with you. Thank you.
    Representative Wolf. Thank you very much.
    Senator Kennedy. Let me, if I could, Congressman, you have 
visited a lot of prisons in other parts of the world. Do you 
think this is something that is endemic in prisons? Where do we 
come out on all of this? Are we better? Are we worse? There is 
a general sense that we have got a great deal to do.
    Representative Wolf. I do not know, Senator. It is not an 
issue--I have been in prisons in other countries. It is really 
not an issue you can really raise with a man, so I do not 
really know the answer. Perhaps the Prison Fellowship people or 
some of the other groups would know.
    Senator Kennedy. If it is bad in other countries, it does 
not help us and should not give us any satisfaction. We have an 
enormous challenge, an incredible problem, one that has not 
gotten the focus and attention that it should have for all the 
excellent reasons that you and Senator Sessions have pointed 
out, so we thank you so much for being here. We want to 
continue to work very closely with you.
    Representative Wolf. Thank you, Senator.
    Senator Kennedy. Thank you very much.
    [The prepared statement of Mr. Wolf appears as a submission 
for the record.]
    Senator Kennedy. We have a very excellent panel. I will ask 
them if they would come forward when I introduce them.
    Linda Bruntmyer is a resident of Amarillo, Texas. She has 
suffered a devastating loss and demonstrated extraordinary 
courage in telling her story so that future tragedies can be 
avoided. Film maker Gabriel London has featured her in his 
documentary, ``No Escape: Prison Rape in America.''
    Mark Earley is making the transition from politics to the 
ministry. He was a member of the Virginia State Senate from 
1987 to 1997 and was the Virginia Attorney General from 1997 to 
2001. Mr. Earley recently became President of the Prison 
Fellowship Ministries, a nonprofit ministry that provides 
support and spiritual guidance to thousands of prisoners, ex-
prisoners, victims, and their families. Chuck Colson, the 
founder of Prison Fellowship Ministries, has spoken eloquently 
against prison rape and Mark Earley is continuing his record of 
service and moral leadership.
    Robert Dumond is a clinical mental health counselor in 
Hudson, New Hampshire. For over 30 years, he has provided 
services to crime victims and offenders. He served as Director 
of Mental Health for the Massachusetts Department of 
Corrections. He developed the first curriculum for rape 
awareness training. He has researched, written, and lectured 
extensively on the subject of sexual assault and serves on the 
New Hampshire Department of Corrections Citizens Advisory Board 
Committee and on the Board of Advisors for the Organization to 
Stop Prisoner Rape. We are delighted to have him here.
    And an old friend, Rabbi David Saperstein, is our final 
witness. He is well known to everyone here. For 25 years, he 
has been the Director of the Religious Action Center of Reform 
Judaism. Rabbi Saperstein has been a strong advocate for human 
rights, civil rights, and social justice. He has written 
several books, led religious coalitions, and serves on the 
board of the Leadership Conference on Civil Rights of the 
NAACP. In 1999, he was selected as the first Chair of the U.S. 
Commission on International Religious Freedom. Rabbi Saperstein 
also teaches First Amendment and Jewish law at Georgetown 
University Law Center. We welcome you.
    I think each of our witnesses has a unique insight into the 
problem of prison rape and I thank them all for being here. We 
look forward to their testimony.
    We will start with you, Ms. Bruntmyer.

         STATEMENT OF LINDA BRUNTMYER, AMARILLO, TEXAS

    Ms. Bruntmyer. Thank you for giving me this opportunity to 
testify. My name is Linda Bruntmyer and I am here today to tell 
you about my son, Rodney Hulin.
    When Rodney was 16, he and his brother set a dumpster on 
fire in the alley of our neighborhood. The authorities decided 
to make an example of Rodney. Even though only $500 in damage 
was caused by the fire, they sentenced him to 8 years in an 
adult prison.
    We were frightened for him from the start. At age 16, 
Rodney was a small guy, only five-foot-two and about 125 
pounds. And as a first offender, we knew he would be targeted 
by tough, older, adult inmates.
    Then our worst nightmare came true. Rodney wrote us a 
letter telling us he had been raped. A medical examiner had 
confirmed the rape. The doctor found tears in his rectum and 
ordered an HIV test, because, he told us, one-third of the 
prisoners there are HIV positive.
    Only that was the beginning. Rodney knew if he went back 
into the general population, he would be in danger. He wrote to 
the authorities, requesting to be moved to a safer place. He 
went through all the proper channels, but he was denied.
    After the first rape, he returned to the general 
population. There, he was repeatedly beaten and forced to 
perform oral sex and raped. He wrote for help again. In the 
grievance letter, he wrote, ``I have been sexually and 
physically assaulted several times, by several inmates. I am 
afraid to go to sleep, to shower, and just about anything else. 
I am afraid that when I am doing these things, I would die at 
any minute. Please, sir, help me.''
    Still, officials told him that he did not meet the 
emergency criteria. We all tried to get him to a safe place. I 
called the warden, trying to figure out what was going on. He 
said, ``Rodney needs to grow up.'' He said, ``This happens 
every day. Learn to deal with it. It is no big deal.''
    We were despaired. Rodney started to violate the rules so 
that he would be put in segregation. After he was finally put 
into segregation, we had about a 10-minute phone conversation. 
He was crying. He said, ``Mom, I am emotionally and mentally 
destroyed.''
    That was the last time I heard my son's voice. On the night 
of January 26, 1996, my son hung himself in his cell. He was 17 
and afraid and ashamed and hopeless. He laid in a coma for the 
next 4 months before he died.
    Sadly, I know that Rodney is not alone. The human rights 
group Stop Prisoner Rape gets calls and letters every day from 
men and women who are asking for help, to help them move to a 
safer place, asking them to help protect their loved ones who 
are being raped, asking them to help because there was no one 
in authority that would step in and say, no, this is not 
justice. This is not right.
    I support this legislation because I know it would stop 
prisons from ignoring pleas for help from people like my son. 
We know that what happened to Rodney could have been prevented. 
There are ways to protect the vulnerable inmates and ways to 
respond to the needs of prisoners who have been sexually 
assaulted. Even so, vulnerable prisoners are being sexually 
abused across this country every day. Rodney tried to ask for 
help. I tried, too. But nothing was done.
    I am asking, please, sir, please support this legislation. 
It is urgently, desperately needed. Rape in prison should no 
longer be tolerated. It destroys human dignity. It spreads 
diseases. It makes people more angry and violent. It kills. It 
is not what we mean when we say justice. Rape should not be 
considered a part of a punishment. Rape is always a crime.
    Senator Kennedy. Thank you very much, Linda.
    Ms. Bruntmyer. Thank you.
    Senator Kennedy. We know that this is a horrific incident 
and we know that it is enormously difficult for you to be able 
to relive that time, so we are very, very appreciative of the 
fact that you are willing to come here and tell us about it. It 
is very helpful to us. The best way that we can try and thank 
you for it is to do something, and we will. Thank you very 
much, though.
    Ms. Bruntmyer. Thank you.
    [The prepared statement of Ms. Bruntmyer appears as a 
submission for the record.]
    Senator Kennedy. Mr. Earley, thank you very much. We look 
forward to your testimony.

    STATEMENT OF MARK EARLEY, PRESIDENT, PRISON FELLOWSHIP 
                  MINISTRIES, RESTON, VIRGINIA

    Mr. Earley. Thank you, Mr. Chairman, Senator Sessions. 
Thank you all very much for holding this hearing. I 
particularly want to thank you, Mr. Chairman, Senator Sessions, 
Congressman Wolf, and Congressman Scott, for your leadership in 
supporting this legislation.
    My name is Mark Earley. I am currently the President of 
Prison Fellowship Ministries. Prior to that, I served for the 
last 4 years as Attorney General of Virginia.
    Many of you know Prison Fellowship was founded in 1976 by 
Chuck Colson. It is today the largest prison outreach and 
criminal justice reform organization in the world, in all 50 
States and 95 countries around the world. Our goal is to bring 
the redemptive love of Jesus Christ to prisoners, ex-prisoners, 
families, and victims of crime. Many of our staff are ex-
offenders.
    I want to speak just for a second about the problem. The 
problem of prison rape, as you have just heard, is real. It is 
unjust, it is tragic, and unfortunately, often hidden. For 26 
years of Prison Fellowship's ministry, our staff employees and 
volunteers have heard from many of the prisoners we have served 
the kinds of stories we all just heard from Ms. Bruntmyer. We 
have been able to see behind the curtain of secrecy that so 
often exists.
    This is a problem that affects everyone. Ninety-five 
percent of all inmates will return to society and they will 
return in a way that will either help them to reintegrate or 
hinder their ability to reintegrate. If they have been victims 
of sexual assault and rape, the deck is stacked against them 
from becoming productive members of society.
    Congressman Wolf eloquently spoke about the psychological 
ravages that occur from prison rape and Ms. Bruntmyer's son is 
an example of what ultimately happens in far too many cases, 
and that is psychological depression, leading to suicide.
    The problem also affects more prisoners than we think. Out 
of the two million prisoners in the United States, the 
estimates are between 250,000 and 600,000 have been forced to 
have sexual contact. In 1996, Nebraska was the subject of a 
survey showing 22 percent of prisoners had been forced to have 
sexual contact. An anonymous Southern State was surveyed on the 
condition of anonymity. One-third of prisoners said they had 
been subject to prison rape. The guards estimated one-in-five, 
the prison officials, one-in-eight. Either of those statistics 
are devastating.
    Prison Journal had a study in 2000 showing 21 percent of 
all inmates in America have been raped. The problem is that 
studies are too few, and part of what this legislation will 
remedy is to force us to keep statistics to shine a spotlight 
on the problem.
    The other systemic part of this problem is that it is 
fostered by acceptance and indifference at every level. Many in 
society believe that those in prison deserve whatever happens 
to them in prison or believe that whatever happens is 
inevitable. Both are wrong. Some in authority, unfortunately, 
look the other way in order to preserve the peace.
    Jack Cowley was a warden with the Oklahoma Correctional 
System for 20 years. He shared with me, before I came 
yesterday, he said, ``Prison rape, to a large degree, is made 
more serious by the deliberate indifference of many prison 
officials. Oftentimes, these officials will purposely turn 
their back on unspeakable acts in order to maintain peace, 
allowing aggressive predators to have their way. Additionally, 
many prison rapes involve intimidation of the weaker inmate to 
the point where they reluctantly give consent in order to 
survive, but it is rape nonetheless. Therefore, many of the 
officials believe in managing a 1,000-person prison designed 
for only 500 becomes much easier and they permit it to occur as 
a means of prison control.''
    Having served as Attorney General in Virginia and having 
been in the legislature for 10 years, obviously, all of us in 
politics want to be tough on crime. Prison rape is a crime. It 
is a crime that no one, either in jail or out of jail, should 
ever be subject to.
    This proposed legislation today that is the subject of this 
hearing has a tremendously broad coalition of support and you 
are to be commended for leading such a coalition. Its goal is 
to eliminate rape. I would like to just focus my comments on 
one piece of the legislation which I think is going to be very 
important, and that is that it enables the collection of 
statistics.
    In society, we measure what we care about, and 
unfortunately, we have not cared about this problem. We need to 
begin. Measuring statistics will imprint this issue upon the 
moral conscience of America. It will imprint it upon the moral 
conscience of prison officials, and it will discourage prison 
officials from using it as a means of prison control. It will 
enable us to pinpoint the prisons that need help, to allocate 
attention and resources accordingly.
    Issues of federalism should not be a concern with this 
legislation. This legislation forces a State to do nothing. It 
has no unfunded mandates. It does encourage States to adopt 
Federal standards, but it even allows them to opt out of those 
Federal standards by a vote of their legislature. Indeed, if 
the Congress wanted to, based on existing constitutional law, 
it could go much further, but this is a bill which respects the 
sovereignty of States. Therefore, objections based on a 
federalism argument should not be an issue.
    Finally, I would like to close with a quote of Winston 
Churchill, who said this. ``One of the best tests of whether we 
are truly a civilized people is the temper and mood of the 
public in regard to the treatment of crime and criminals.'' You 
have afforded us a great opportunity to pass this test, a test 
which we have failed in the past. Thank you.
    Senator Kennedy. Thank you very much. That is very helpful.
    [The prepared statement of Mr. Earley appears as a 
submission for the record.]
    Senator Kennedy. Rabbi Saperstein?

STATEMENT OF RABBI DAVID SAPERSTEIN, DIRECTOR, RELIGIOUS ACTION 
           CENTER OF REFORM JUDAISM, WASHINGTON, D.C.

    Rabbi Saperstein. Good afternoon. I am here representing 
the National Reform Jewish movement. I am pleased to speak in 
support of the Prison Rape Reduction Act of 2002. This 
important legislation would address a profound violation of 
human rights whose shameful prevalence has been overlooked in 
this country for far too long.
    I want to commend you, Senator Kennedy and Senator 
Sessions, as well as Representatives Wolf and Scott, for your 
passionate, bipartisan leadership on this issue. We could not 
have, we could not ask for Congressional champions more 
dedicated to upholding the basic values of human dignity.
    The scourge of prison rape demands a response. Tragically, 
there are hundreds of thousands of Linda Bruntmyers, hundreds 
of thousands of mothers and fathers who see their children 
brutalized, victimized, and are unable to do anything about it. 
Tragically, there are hundreds of thousands of Rodney Hulins, 
too, those who are the victims and have nowhere to go for help 
and are caught up in a Kafka-esque system that grinds down 
their spirits and their bodies.
    No society that considers itself to be a moral and 
compassionate society can stand idly by the blood of our 
neighbors. We must speak out. That has brought us here and has 
led you to introduce and to further this legislation.
    We know the statistics. We have heard them here. But behind 
each of those are real human beings. We must not allow this 
terror to continue.
    The bill at issue today provides a responsible and measured 
approach to the problem, setting up mechanisms for the study, 
reporting, and prevention of prison rape. It promises to bring 
to the forefront this tragic plague that is too often a 
punchline and too rarely a subject of genuine concern in our 
civic life.
    Mark Earley spoke about some of the provisions of the bill. 
I was delighted to see also that it will set up a commission to 
deal in some depth with this. As one who is honored to have 
served as the chair of a Federal commission established by a 
unanimous Act of Congress, I can testify to the potential of 
such commissions to be a vitally effective goad to executive 
and legislative officials and to the public conscience.
    These reforms, if enacted, would for the first time signal 
a serious engagement with the problem by the Federal 
Government. Such an engagement is vital precisely because 
turning our back on prison rape not only violates the Eighth 
Amendment's protection against cruel and unusual punishment, it 
also betrays our most fundamental moral values.
    I am here today to tell you that we can prevent prison 
rape. We must prevent prison rape. We can no longer stand idly 
by.
    From 1971 to 1973, I served as a volunteer chaplain in a 
Federal penitentiary in Danbury, Connecticut. It is a better 
facility as far as correctional facilities go, and yet even 
there, I counseled people who were the victims of sexual abuse 
and sexual assault, and there, for the first time, I 
encountered the response of prison officials, who said, ``There 
is nothing that we can do.''
    Well, there is something we can do and that is what is 
uniting us here. Because of the profound moral clarity of the 
issue, a remarkable coalition of conscience has come together 
in support of your legislation--Jewish, mainline Protestant, 
Evangelical, Unitarian, civil rights, human rights, criminal 
justice reform advocates, health care professionals, youth 
workers, liberals, conservatives, and everyone in between, 
because we all believe that prison rape is wrong and that we 
can and must do something about it.
    Many of us work together frequently, some of us a little 
less commonly. For example, it is not so common for Reform Jews 
and conservative Evangelicals to find common ground to work 
together, but when we do, you can be sure that the issue at 
stake is one that cuts to the heart of a principle so basic 
that no reasonable person can stand in the way of its genuine 
manifestation.
    One of the Bible's most radical innovations was to put 
forward the notion that human beings are created ``b'tselem 
elohim,'' ``in the image of God.'' The use of that divine image 
to describe the human state serves to raise up humankind to 
proclaim the infinite worth and potential of each individual 
person and the implications of such a concept are far-reaching 
and profound, imposing on individuals and societies the 
obligation never to stand by while others are degraded, to 
recognize the potential in all for redemption, and to assist 
the most vulnerable.
    That this includes the prisoner is reflected directly in 
the Bible. In Biblical times, there was not imprisonment for 
criminal activity, but the closest analogy we have--the status 
of those who were taken as prisoners captured in wartime--sees 
in Deuteronomy clear prohibitions against their abuse, 
including, according to the rabbis, rape of both men and women. 
Rape is a sin, a vile sin, in the Bible. It is at minimum a 
civil wrong requiring payment of damages by the perpetrator for 
compensation. The Bible recognizes the immense pain, suffering, 
shame, and blemish that those who are targeted and victimized 
are intended to suffer. In other places, rape is categorized as 
a capital offense.
    But we recognize that to allow the epidemic of prison rape 
to continue unabated is to reject the spirit of the divine that 
connects us all. Therefore, I urge the other members of this 
committee to join with you in passing out as soon as possible 
and bringing to the floor for passage the Prison Rape Reduction 
Act. We need to act expeditiously. For every day we delay, 
there are other Rodney Hulins who continue to be victimized, 
and that we can no longer accept.
    Senator Kennedy. Thank you.
    [The prepared statement of Rabbi Saperstein appears as a 
submission for the record.]
    Senator Kennedy. Mr. Dumond?

     STATEMENT OF ROBERT W. DUMOND, CLINICAL MENTAL HEALTH 
 COUNSELOR, AND MEMBER, BOARD OF ADVISORS, STOP PRISONER RAPE, 
                     HUDSON, NEW HAMPSHIRE

    Mr. Dumond. Good afternoon, Mr. Chairman, Senator Sessions. 
I would like to thank the Senate Judiciary Committee for the 
opportunity to testify here today. I would also like to thank 
you, Senator Kennedy and Senator Sessions, for your leadership 
in proposing this historic legislation, as well as Congressmen 
Wolf and Scott.
    Prison rape has often been accepted as an inevitable 
consequence of incarceration. We cannot and must not allow this 
to occur. Your leadership will alleviate the agony of hundreds 
of thousands, perhaps millions of individuals who have suffered 
in silence.
    My name is Robert Dumond. I am a licensed clinical mental 
health counselor who for over 30 years has provided services to 
crime victims and offenders in a variety of settings, most 
notably within the office of the Essex County District Attorney 
Kevin Burke and the Massachusetts Department of Corrections. 
Having extensively researched prison sexual assault, I am here 
to provide a scientific context to this scandal.
    While everyone recognizes that sexual assault is a problem, 
the actual incidence of prison sexual assault in the United 
States is unknown. Currently, no national database exists. In 
35 years, there have only been 15 empirically-based studies to 
study the problem and only two have included women. As you have 
heard, we have, however, a reliable baseline of incidence data 
to draw from, from two large studies of Midwestern prisons 
conducted by Cindy Struckman-Johnson and her colleagues.
    I know this is going to be repetitive, but I think it bears 
repeating. She found that 22 to 25 percent of the prisons are 
victims of sexual pressuring, attempted sexual assault, and 
completed rape. One in ten is going to experience a completed 
rape during the course of their incarceration. Two-thirds of 
those who reported were victimized repeatedly, an average of 
nine times. Some males experienced 100 incidents per year. 
Others experienced assaults daily.
    Using this data, it is reasonable to conclude that in 
States with larger, urban, more heterogeneous populations, the 
incidence would be much higher. This was demonstrated in a 1982 
study of a California medium-security prison in which one in 
seven inmates reported being the victim of a completed rape. 
One of the goals of this legislation is to scientifically 
collect the actual incidents of prison sexual assault in 
institutions nationally.
    No inmate is immune from victimization. Certain inmates, 
however, appear to be especially vulnerable. These include the 
young, the inexperienced, first-time offenders, the mentally 
disabled, and homosexual and effeminate men, to name but a few.
    As you have heard, the crisis of being a sexual assault 
victim is global and devastating. In prison, however, it is 
even more debilitating. Victims often experience physical 
assaults as well as their attacks and they may experience 
repeated trauma. Once targeted, male victims may endure years 
of sexual slavery.
    The mental health consequences are catastrophic. Victims 
experience a variety of symptoms, including post-traumatic 
stress disorder, anxiety, depression, and exacerbation of 
preexisting psychiatric disorders, and they may also consider, 
attempt, or complete suicide as a means of alleviating their 
suffering. This is more disturbing when we realize that we 
currently house more individuals with mental illness in the 
United States in jails and prisons than collectively in the 
psychiatric facilities nationwide. In addition, most 
correctional facilities have few or inadequate services to 
treat victims carefully.
    As you have heard, the public health consequences are 
equally overwhelming. Victims may contract HIV, AIDS, other 
sexually transmitted diseases, other communicable diseases such 
as tuberculosis, hepatitis B and C, which are rampant in 
corrections nationally. These may be spread to others in the 
prison population and to the general community.
    Prison sexual assault destabilizes the safety and security 
of American jails and prisons. For over 25 years, it has been 
recognized as a contributing factor in prison homicides, 
institutional violence, and riots. Administrative and 
programmatic solutions have long been recommended but too often 
ignored. Many prison administrators have been largely 
unaccountable for the sexual assaults committed under their 
care.
    The study you heard of by Joanne Mariner of Human Rights 
Watch in 2001 surveyed 50 State correctional departments and 
the Federal Bureau of Prisons. Her study confirms this denial. 
Effective management can only be implemented when we have 
accurate data. Only 23 of 46 corrections departments currently 
maintain statistics about sexual assault. None of the States 
that reported had statistics that were in any way consistent 
with the two large-scale studies of Struckman-Johnson. Staff 
training has long been recognized as a vital issue in 
addressing the problem. Only six States currently and the 
Federal Bureau of Prisons provide such training. Criminal 
prosecutions are virtually nonexistent.
    This legislation provides a tangible, comprehensive 
strategy to address the complex challenges of prison sexual 
assault. With accurate incidence data, correctional managers 
can make rational decisions about staff deployment, resource 
allocation, inmate placement, thereby improving the safety and 
security of America's jails and prisons. This is also a crisis 
which can be managed without significant monetary expenditures. 
The bill's emphasis on visibility and accountability will be 
highly effective. Prison officials with records of poor 
practice will be held accountable for their inaction and 
deliberate indifference. The National Prison Rape Reduction 
Commission will also play a key role in developing reasonable 
standards of care for providing staff training, treatment of 
victims, and ensuring the best professional practice.
    Stop Prisoner Rape endorses this legislation as a critical 
step in curbing one of the most pervasive and devastating 
abuses that has been allowed to continue in the United States. 
They and I urge your support. Prison rape is preventable. 
Prison rape is predictable. We have ignored this problem for 
much too long. Hundreds of thousands of prisoners, many of whom 
are the most vulnerable, have silently endured these crimes. We 
have the technology. We have the resources and the means to 
address this issue. But we have lacked the political will to 
implement the remedy. Please, please do not allow this scandal 
to continue. My heartfelt thanks for your time and attention.
    Senator Kennedy. Thank you very much.
    [The prepared statement of Mr. Dumond appears as a 
submission for the record.]
    Senator Kennedy. I thank all our panel for excellent 
testimony.
    Ms. Bruntmyer, let me ask you, after you went through this 
horrific experience, were you able to reach out to anyone or 
was anyone able to reach out to you? Have you been able to work 
with different groups where there are other families that have 
lost loved ones, or have you felt sort of solitary in this 
whole crisis? What could you tell us about the efforts that 
have been made to reach out to you or that you have tried to 
work with other kinds of individuals who might similarly be 
affected?
    Have you been able to do it, or has it just been too 
difficult emotionally? If your answer to that was, it has just 
been too difficult, I certainly would understand it. But I am 
just wondering how you have been able to survive and how you 
have been able to deal with this.
    Ms. Bruntmyer. I have a support group that I do in my home 
for families. I do help them with their children, their loved 
ones in prison to know what is the process of sending a book, 
how to sit down and write a letter. We were told, when we went 
through it with Rodney, we have no rights. We found out we do 
have rights and Rodney had rights. We did not know that. And 
today, we try to save kids. We try to help them. We are there 
for the families.
    Senator Kennedy. It would certainly seem that as this 
commission is set up to try and sort of develop this kind of 
understanding of what is happening, that they would certainly 
spend some time with you and your group and other similar 
groups to be able to see what can be done to provide help and 
assistance to you and to the other groups and what can be done 
in terms of taking steps to prevent this.
    Let me ask just the panel, in listening to all of you, I 
gather there is sort of this culture of tolerance that is out 
there. How do you break through that cultural tolerance? How do 
you think that that can be done? We can get the information. We 
can get the statistics. We can get the training. I suppose 
included in that is the prosecution, perhaps even, in terms of 
individuals who tolerate this or knowingly let this go by.
    How do you think, as people that have seen this, thought 
about it, talked about it, studied it, how do you break through 
this sort of culture? What ideas or suggestions do you have in 
this area?
    Mr. Dumond. Senator, I would like to address that by 
addressing a couple of issues. You have heard the strong moral 
argument, which has been articulated, and clearly, we have to 
keep maintaining the fact that this can occur to any individual 
who is incarcerated in the United States.
    Senator Kennedy. Right.
    Mr. Dumond. As an aside, there but for the grace of God go 
I. Any one of us in this room, had we had the kind of 
experience that many of these men and women had, could have 
been incarcerated.
    A second issue which I think may be effective is the cost-
benefit analysis. We currently expend an average of about 
$20,000 to $22,000 to $25,000 minimally for each inmate each 
year. When you consider maximum-security prisons, that cost can 
escalate to $75,000 to $80,000. From a cost-benefit analysis, 
does society do itself a disservice by allowing for prison 
sexual assault when these individuals, A) will get out, B) will 
harm other people, and C) return back to prison? So the cost-
benefit analysis, I think, clearly has to be considered as a 
major factor, and that can be instrumental in causing a sort of 
a change or a sea change of how our attitude about this issue.
    Rabbi Saperstein. Let me also add two things. The first is, 
putting a human face on this crisis is indispensable to raising 
the conscience of the country. If everyone in the nation could 
take 3 minutes and listen to Linda Bruntmyer tell her story, it 
would transform the way this would be dealt with.
    But structurally, the inclusion in this legislation of the 
commission, whose job it will be to help accumulate the 
statistics, along with the Attorney General and the Justice 
Department, whose job it will be to hold hearings on this--
there is not a single community in the country where you could 
not go and hear a variant of the tragic story that we heard 
today. And if that commission is doing its job and holding 
hearings around the country, getting attention in the local 
papers, it will be an indispensable component to raising the 
consciousness of the nation and mobilizing local legislators 
like yourself to follow in your footsteps here, to begin to 
look for legislative steps to take at the local and the State 
level, as well, where really much of this job must be done.
    And that, I think, is the brilliance of this legislation, 
that it really aims to empower the States, not to force the 
States to do things, but to empower the States to act 
effectively in this arena, giving them the tools, the training, 
the guidelines, the experience of best practices across the 
country, and the information necessary to do that.
    So in very real ways, Senator Kennedy, the answer to your 
question is your legislation.
    Senator Kennedy. Thank you.
    Mr. Earley. Senator, I was going to mention the same thing. 
I do not think you can underestimate the fact that simply 
because now this legislation has been proposed and it has such 
a broad coalition of support and it is a bipartisan effort in 
the Senate and in the Congress, I think the actual barrier has 
been broken. Today, with two million people in prison in 
America, you do not have to go far to touch a family that is 
impacted by crime or who has a son or daughter or mother or 
father or husband or wife in prison.
    I think with the establishment of a national commission and 
being able to have actually some concrete data--you heard we 
have only had, what, 15 studies in 35 years--that is going to 
enable this. I think the decency of the American people is such 
that once this is clearly articulated by its national leaders 
at the national level, there will be a profound systematic 
change that can occur rather quickly.
    Senator Kennedy. Let me ask you, Mr. Earley, again on this 
federalism issue, could you talk about this for another moment 
or two. I know the administration is looking this legislation 
over and making up its mind and I know this would be something 
that they will be interested in. Senator Sessions has obviously 
had a long tradition on the issues of federalism and it seems 
to me we have tried to deal with this question. I would be 
interested, as a former Attorney General, your own view of 
whether you think this is a fair balance.
    Mr. Earley. I think it is. In fact, I think it is more than 
balanced. I mean, the Congress could, I believe, based on the 
Farmer case, approach this issue with a much bigger stick. I do 
not think it needs to. I think it is taking the right approach, 
and as I mentioned in my comments, this legislation, I think, 
is carefully crafted.
    It requires the States to do nothing. It has no unfunded 
mandates. It even has an opt-out provision. The only punitive 
issue in this bill, and it would be wrong to call it punitive, 
is it withholds certain Federal monies if the State decides to 
opt out of the standards that would be articulated by the 
commission to the Attorney General of the United States and 
then adopted by the Attorney General.
    So again, I think it strikes just the right balance, and I 
do not think, having served with the Attorneys General for the 
last 4 years, this is an issue that is important to all of 
them, Democrats and Republicans, the federalism issue, and I do 
not think you will hear that as an objection to this bill 
because of the thought that has gone into crafting it. I 
commend you on that, because that is tough.
    Let me just finally ask, I would be interested if you find 
some places or institutions that are particularly noteworthy, 
it might be useful. I do not know whether it comes to mind now, 
but I think as this moves along, if you find that there are 
some that are particularly noteworthy, we ought to try and 
highlight those. I do not know whether we would get a chance to 
go visit or whatever, but we would be glad to hear about them. 
I think it is important that we try and give some focus and 
attention and recognition to those that are really doing a good 
job on this, and I think in this way attempt to encourage 
others to try and sort of do that.
    Mr. Dumond. Mr. Chairman, just as a model to consider, 
since 1979, the San Francisco jail under Michael Markum has had 
very strong commitment to preventing prisoner sexual assault. 
It has a long tradition of identifying this as a problem, of 
noting it to new inmates who are coming in, of making people 
aware.
    Also, one of the telling things about Mariner's report was 
that it identified that in institutions where there was a zero-
tolerance attitude from the top, this problem was not manifest 
with the same degree that we have seen in some of the 
statistics. So clearly, there are corrections environments that 
are doing a good job, that are handling this in a responsible 
manner. We need to use those as models and certainly consider 
them as we craft what we are going to do from this point on.
    Senator Kennedy. I think that is an excellent response, 
particularly to those that say, well, this is just going to 
happen so they cannot do anything about it. It is inevitable. 
This is the way it has been for no matter how many hundred 
years and it is going to be that way in the future. If we are 
able to identify those institutions that are really making a 
difference on it, and no one underestimates the complexity and 
the difficulty of doing it, but those that are making 
systematic progress on it, we ought to do everything we can to 
highlight it or mention it. We invite all of you and those that 
are going to be reading through the record on this to be in 
touch with House sponsors and Senator Sessions and myself so 
that we can try and highlight those that are doing a good job.
    Senator Sessions?
    Senator Sessions. Thank you.
    Ms. Bruntmyer, thank you for sharing that story with us. It 
is just very, very moving and all of us who have played a role 
in the criminal justice system in America cannot feel good that 
there are others also that suffered as Rodney did.
    He was sentenced, even though he was young, as an adult, is 
that correct, and was sent to adult prison?
    Ms. Bruntmyer. Yes, sir.
    Rabbi Saperstein. Mr. Chairman, one of the things when we 
had our juvenile crime bill, I favored expanding juvenile jails 
and some people criticized that as saying you want to lock up 
young people. But really, what most people are failing to 
realize is we are certifying as adults a much, much larger of 
young people than we ever have before. The main reason is there 
is not enough space in the juvenile system. So I just say that. 
I think we could do better by expanding our juvenile system.
    Do you think, Mr. Dumond, that juvenile facilities are more 
protective of the people there than maybe an adult prison, or 
it depends?
    Mr. Dumond. I would like to say yes, Senator. The evidence 
does not seem to appear the case.
    Senator Sessions. Really?
    Mr. Dumond. There has really been a paucity of studies in 
juvenile facilities. One of the studies that was done was done 
by Ken Wooden, ``Weeping in the Playtime of Others,'' in 1976. 
Also, Bartollas and Sieveides did a study of juvenile 
institutions. Forst, Fagan and Vivona in 1989 were able to 
identify that juvenile institutions, individuals in juvenile 
institutions were five times more likely to be sexually 
assaulted than others.
    So clearly, I think this is not a problem where we designed 
a system to be better protective of our juveniles. I think many 
of you are aware, in the local media here in Washington, there 
has been an outcry about a number of young people who have been 
sexually assaulted while in foster care. I think that is 
endemic of the kind of situation that occurs nationally.
    Senator Kennedy certainly will remember in our own home 
State of the Commonwealth of Massachusetts, the training 
schools in part were closed because there were allegations, 
serious allegations, of sexual assault and misconduct against 
some of the juveniles.
    So clearly, this is not a problem where--I would like to 
say, yes, we have protected children better. We have not.
    Senator Sessions. Does our legislation, in your view, is it 
comprehensive enough to cover surveys of juvenile facilities 
also?
    Mr. Dumond. Again, I am not sure----
    Senator Sessions. We may need to look at that and make sure 
that that is----
    Mr. Dumond. That may be something we want to----
    Senator Sessions [continuing]. Clearly covered, because we 
need to know that.
    Mr. Earley, let me ask you, to follow up on Mr. Dumond's 
suggestion that there are prisons that are a lot better than 
others, do you think that is true and do you agree that with 
strong leadership, that incidents of sexual abuse could be 
dramatically reduced?
    Mr. Earley. I do. I think in any organization, whether it 
is a prison system or anything else, the signal that is sent 
down from the top, you cannot overestimate its significance.
    One of the things in this bill that will help in the long 
run is that you all have put in a requirement that those 
organizations that accredit correctional facilities throughout 
the United States will have now as part of its new regimen of 
deciding accreditation what these institutions are doing for 
this problem. So that is going to require, as well as, I think, 
the desire of those who run the prisons--I do not think they 
are much different than us and I think if they are focused on 
this problem with strong leadership, it will make a huge 
difference.
    Senator Sessions. Mr. Dumond?
    Mr. Dumond. Senator Sessions, I would like to add to Mr. 
Earley's comments. In regards to professionalization, 
corrections in America was vastly improved in the 1960's 
because it took a very hard look at the way it handled itself. 
By providing for intensive training, by professionalizing what 
it did, by accrediting and having accreditation agencies that 
would sponsor an examination of agencies, we were able to make 
corrections better.
    It is a glaring example of how we have failed and denied 
this issue that the American Correctional Association, for 
example, does not have a current standard regarding sexual 
assault. There is a standard, again, for the record to be 
considered, the National Commission on Correctional Health Care 
has had a standard regarding sexual assault since about 1986. 
So certainly, this is an issue that when we set the tone, when 
we raise the bar, it is likely that we will get a positive 
response.
    Senator Sessions. For the correctional officers who go 
through training and certification to meet certain standards, 
are you satisfied that they receive enough training on this 
subject or do you think they do not?
    Mr. Dumond. Absolutely not. I guess I am proud to say, and 
again, Senator Kennedy will support me on this, I believe, 
Massachusetts was one of the first States to provide for 
intensive training of its correctional staff. We did this back 
in 1994. And as I indicated, I think Massachusetts has done a 
fairly good job. Can it be better? Absolutely. But certainly, 
we are eons ahead of what many States are currently doing, and, 
in fact, many States are doing nothing.
    Senator Sessions. What about the standards? Exactly how 
would you articulate what a good standard should be and how 
would that affect behavior in a prison?
    Mr. Dumond. I think that is an excellent question, Senator. 
No. 1, any standard that is articulated or promulgated has to 
be empirically based. I think we have to have sound scientific 
data to attach and identify so that we make our standards 
responsive to the data that we now understand.
    Second, we have to implement an ongoing training system. 
One of the things that is built in nationally to corrections, 
every correctional staff in almost every State Department of 
Corrections and in the Federal Bureau of Prisons must take 
about 40 hours of comprehensive training each year to update 
their skills. We have the mechanisms and the tools to impact 
upon this in a very substantive manner. We now need the 
curricula and we need to provide that to corrections training 
officers so that this is something that corrections officers 
will identify.
    As an aside, Nacci and Kane, who were researchers with the 
Federal Bureau of Prisons, back in 1982, 1983, and 1984 
identified that staff training was an essential ingredient and 
part of the problem. They also identified that one of the 
issues that has been largely overlooked, many corrections 
officers look at sexual assault or sexual events that occur in 
prison and assume that it is consensual. By doing that, they 
are really avoiding and denying the fact that many of these 
individuals are coerced into being sexually assaulted on an 
ongoing basis.
    We have to have a complete understanding of the severity of 
this issue. We have to hold people accountable who are 
corrections officers and correctional managers. If you are not 
doing your job, you will be held accountable for that.
    Senator Sessions. Now, on a standard, this would tell a 
correctional officer, if they have a complaint from an inmate 
or a concern of an inmate or an expression of concern by a 
guard that something may be unhealthy going on, it would help 
them to have a step for them to take that would be objective 
and professionally based.
    Mr. Dumond. Exactly.
    Senator Sessions. Do you think that the key to reducing 
prison rape would be to listen and make it absolutely clear 
from the beginning of a person's incarceration that if they 
feel threatened or are threatened that they should report it, 
and something does happen to protect them?
    Mr. Dumond. That something will, in fact, occur. There are 
a number of steps that we need to do. Even educating inmates 
themselves when they come into prison that they may be sexually 
victimized, that is a way to empower them to handle the 
situation.
    One of the tasks that has been identified and one of the 
issues that many inmates confront, when they come to prison, 
they often have nothing. What they do is other prisoners will 
give them things, and then when they cannot pay them back, they 
will be forced to give sexual favors to pay them back. That is 
something that an inmate who has never been in prison before 
needs to know, and that is something that they need to be able 
to address, and also that the outcome will be taken seriously.
    If I come to you as a correctional staff person and I say, 
``I have been sexually assaulted,'' you will take me seriously. 
You will try to provide me with protection. You will try to 
move me out of that particular unit. You will try to get me 
some mental health or medical treatment for my injuries, and 
you will help me from being victimized in the future. 
Unfortunately, as you have heard, this is not the case for many 
inmates.
    Senator Sessions. Mr. Earley, you said that we ought to be 
tough on crime, and were not not being tough on crime, and you 
are exactly correct. In fact, when we do not prosecute people 
who sexually assault someone, whether they are in prison or 
not, we are being soft on crime, do you not agree?
    Mr. Earley. Absolutely.
    Senator Sessions. I mean, it is a crime just as much to 
assault somebody sexually in prison as out of prison as a 
matter of law, is it not?
    Mr. Earley. Right, and many times, it can be more 
aggravated because that person in prison has a loss of control 
and they are dependent upon the State much more for their 
security.
    Senator Sessions. With regard to that, do you feel that 
when the State takes a person's liberty and places them where 
they do not desire to be--in the slammer--that they have a 
particular responsibility to see that they are not subjected to 
extra-legal actions and punishments?
    Mr. Earley. Absolutely. I think Mr. Dumond made an 
important point, and all of us who have been involved in 
government are aware of this. Unfortunately, in all of our 
institutions where we require people to be against their will, 
whether it is mental health institutions, juvenile detention 
facilities, or jails, we have a systemic problem with people 
oftentimes being exposed to dangers that they would not be 
exposed to on the outside and being taken advantage of.
    In many cases, in prisons, for example, we have looked the 
other way because of this sort of prevailing public attitude 
and we have, I think, perhaps all been guilty of it, and that 
is, well, you know, they are in prison. They deserve what they 
get. I think the decency of the American people, the decency of 
people who run our institutions can be appealed to and it can 
be put a stop to.
    Mr. Dumond. Mr. Sessions, one of the things that you may 
also be aware of, if you were to talk to any corrections 
officer who was new to corrections and you asked them what the 
mission of corrections would be, they will tell you three 
things. It is the care, custody, and control of inmates. 
Clearly, having and allowing for the sexual assault of inmates 
under the care of the jurisdiction of a governmental agency 
does not meet the requirement of care, custody, and control. So 
we are actually violating the basic mission of American 
corrections by not addressing this problem.
    Senator Sessions. I believe there is one more thing that 
was mentioned previously--I believe you did, Mr. Dumond, and 
maybe you, Mr. Earley--that somehow, some in the prison system 
might see prison rape as a management tool. What do you mean by 
that?
    Mr. Dumond. Just for the record, that is not my statement, 
but I will tell you that the research has been very strong in 
indicating and many analysts have suggested that it is a way to 
control the competing forces within a prison environment, and I 
will give you an example.
    If I have some strong inmates who then can be sexually 
satiated with weaker inmates and I can get them to conform to 
the prison institution by allowing this to take place, then I 
can manage my institution in a better fashion. Clearly, that is 
inappropriate, and clearly, that is wrong and can never be 
accepted. But that has been suggested by some very serious 
analysts, including Dr. Jim Gilligan, also of the Commonwealth 
of Massachusetts, who is a forensic psychiatrist, in his book 
in 1997, Violence: An American Epidemic. He suggests very 
strongly that there may have been a collusion by correctional 
institutions in allowing for prison sexual assault to occur as 
a management tool.
    Senator Sessions. Mr. Earley?
    Mr. Earley. Senator Sessions, if I could, I did not read 
this because of time, but this is just a brief excerpt. An L.A. 
Times article in 1999 reported the case of Eddie Dillard, a 23-
year-old gang member from Los Angeles, which is a frightening 
example of what you were just talking about. Dillard was 
serving time for assault with a deadly weapon when he kicked a 
female guard. He was transferred to the cell of Wayne 
Robertson, known within prison walls as the ``booty bandit.'' 
Robertson was an enforcer for the guards, helping them rein in 
troublesome newcomers while officials looked the other way.
    When Dillard protested the transfer, he was told, ``Since 
you like hitting women, we have got somebody for you.'' 
Robertson, the person to whom he was transferred in with, beat, 
raped, and tortured Dillard for days. The guards were later 
criminally charged, and while they were ultimately acquitted, 
there was no dispute as to the facts, merely as to whether or 
not liability extended to prison officials. So I think that is 
an example.
    Senator Sessions. And it would indicate to me that that 
prison is out of control, would you not agree?
    Mr. Earley. It certainly was during that time.
    Senator Sessions. The inmates are running the prison. That 
is not the way the system should be and I hope that is not too 
common, but I am afraid it is more common than we would like to 
admit.
    Rabbi Saperstein, thank you for your leadership on this 
issue. You spoke very clearly that even though a person might 
be housed behind bars, they are the same creature of God that 
they were before they went in and will be the same as they will 
be when they are out. I think every human being is entitled to 
safe conditions, even in prison.
    Thank you, Mr. Chairman, for your leadership on this issue. 
You are champion of a lot of issues of this kind. It is 
important, and I have enjoyed very much working with you.
    Senator Kennedy. I thank you, Senator Sessions. We are 
reminded by our panel and others that this is a long-standing 
problem. Listening to this, we always ask ourselves why we have 
not been able to get on this before. But having said that, I 
think we can give the assurance to our panelists and those who 
are represented that we are committed to getting something done 
and we want to work with all of you and others to try and make 
sure that what we are going to do is going to be meaningful and 
we are going to keep at it. That is what Senator Sessions wants 
to do, what I want to do, and so we are in for the duration of 
this and we want to try to make a difference. I believe we can.
    Senator Sessions. Mr. Chairman, I would offer Senator 
Hatch's statement, who is a supporter of this legislation, 
also.
    Senator Kennedy. The statement will be included in the 
record. All statements will be included. Very good.
    [The prepared statement of Senator Hatch appears as a 
submission for the record.]
    Senator Kennedy. The committee will stand in recess. Thanks 
very much.
    [Whereupon, at 2:46 p.m., the committee was adjourned.]
    [Submissions for the record follow:]
    [GRAPHIC] [TIFF OMITTED] 87677.001
    
    [GRAPHIC] [TIFF OMITTED] 87677.002
    
    [GRAPHIC] [TIFF OMITTED] 87677.003
    
    [GRAPHIC] [TIFF OMITTED] 87677.004
    
    [GRAPHIC] [TIFF OMITTED] 87677.005
    
    [GRAPHIC] [TIFF OMITTED] 87677.006
    
    [GRAPHIC] [TIFF OMITTED] 87677.007
    
    [GRAPHIC] [TIFF OMITTED] 87677.008
    
    [GRAPHIC] [TIFF OMITTED] 87677.009
    
    [GRAPHIC] [TIFF OMITTED] 87677.010
    
    [GRAPHIC] [TIFF OMITTED] 87677.011
    
    [GRAPHIC] [TIFF OMITTED] 87677.012
    
    [GRAPHIC] [TIFF OMITTED] 87677.013
    
    [GRAPHIC] [TIFF OMITTED] 87677.014
    
    [GRAPHIC] [TIFF OMITTED] 87677.015
    
    [GRAPHIC] [TIFF OMITTED] 87677.016
    
    [GRAPHIC] [TIFF OMITTED] 87677.017
    
    [GRAPHIC] [TIFF OMITTED] 87677.018
    
    [GRAPHIC] [TIFF OMITTED] 87677.019
    
    [GRAPHIC] [TIFF OMITTED] 87677.020
    
    [GRAPHIC] [TIFF OMITTED] 87677.021
    
    [GRAPHIC] [TIFF OMITTED] 87677.022
    
    [GRAPHIC] [TIFF OMITTED] 87677.023
    
    [GRAPHIC] [TIFF OMITTED] 87677.024
    
    [GRAPHIC] [TIFF OMITTED] 87677.025
    
    [GRAPHIC] [TIFF OMITTED] 87677.026
    
    [GRAPHIC] [TIFF OMITTED] 87677.027
    
    [GRAPHIC] [TIFF OMITTED] 87677.028
    
    [GRAPHIC] [TIFF OMITTED] 87677.029
    
    [GRAPHIC] [TIFF OMITTED] 87677.030
    
    [GRAPHIC] [TIFF OMITTED] 87677.031
    
    [GRAPHIC] [TIFF OMITTED] 87677.032
    
    [GRAPHIC] [TIFF OMITTED] 87677.033
    
    [GRAPHIC] [TIFF OMITTED] 87677.034
    
    [GRAPHIC] [TIFF OMITTED] 87677.035
    
    [GRAPHIC] [TIFF OMITTED] 87677.036
    
    [GRAPHIC] [TIFF OMITTED] 87677.037
    
    [GRAPHIC] [TIFF OMITTED] 87677.038
    
    [GRAPHIC] [TIFF OMITTED] 87677.039
    
    [GRAPHIC] [TIFF OMITTED] 87677.040
    
    [GRAPHIC] [TIFF OMITTED] 87677.041
    
    [GRAPHIC] [TIFF OMITTED] 87677.042
    
    [GRAPHIC] [TIFF OMITTED] 87677.043
    
    [GRAPHIC] [TIFF OMITTED] 87677.044
    
    [GRAPHIC] [TIFF OMITTED] 87677.045
    
    [GRAPHIC] [TIFF OMITTED] 87677.046
    
    [GRAPHIC] [TIFF OMITTED] 87677.047
    
    [GRAPHIC] [TIFF OMITTED] 87677.048
    
    [GRAPHIC] [TIFF OMITTED] 87677.049
    
    [GRAPHIC] [TIFF OMITTED] 87677.050
    
    [GRAPHIC] [TIFF OMITTED] 87677.051
    
    [GRAPHIC] [TIFF OMITTED] 87677.052
    
    [GRAPHIC] [TIFF OMITTED] 87677.053
    
    [GRAPHIC] [TIFF OMITTED] 87677.054
    
    [GRAPHIC] [TIFF OMITTED] 87677.055
    
    [GRAPHIC] [TIFF OMITTED] 87677.056
    
    [GRAPHIC] [TIFF OMITTED] 87677.057
    
    [GRAPHIC] [TIFF OMITTED] 87677.058
    
    [GRAPHIC] [TIFF OMITTED] 87677.059
    
    [GRAPHIC] [TIFF OMITTED] 87677.060
    
    [GRAPHIC] [TIFF OMITTED] 87677.061
    
    [GRAPHIC] [TIFF OMITTED] 87677.062
    
    [GRAPHIC] [TIFF OMITTED] 87677.063
    
    [GRAPHIC] [TIFF OMITTED] 87677.064
    
    [GRAPHIC] [TIFF OMITTED] 87677.065
    
    [GRAPHIC] [TIFF OMITTED] 87677.066
    

</pre></body></html>
